Ti

C@OCKLE

2311 Douglas Street Le ga ] Brie f s E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923, contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-329

WINSTON-SALEM INDUSTRIES FOR THE BLIND,
Petitioner,

v.
UNITED STATES OF AMERICA;
PDS CONSULTANTS, INC.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 10th day of October, 2019, send out
from Omaha, NE 3 package(s) containing 3 copies of the Brief of Alphapointe; Association for Vision Rehabilitation and
Employment, Inc.; Austin Lighthouse; Beacon Lighthouse, Inc.; Beyond Vision; Central Association for the Blind & Visually
Impaired; Cincinnati Association for the Blind & Visually Impaired; Envision; LC Industries, Inc.; Lighthouse for the Blind —
St. Louis; Lighthouse Louisiana; Olmsted Center for Sight; San Antonio Lighthouse for the Blind & Vision Impaired; and
The Lighthouse for the Blind, Inc. — Seattle as Amici Curiae in Support of Petitioner and Reversal in the above entitled case.
All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
LAWRENCE S. EBNER
Counsel of Record
CAPITAL APPELLATE ADVOCACY PLLC
1701 Pennsylvania Ave., NW
Washington, DC 20006
(202) 729-6337
lawrence.ebner@capitalappellate.com

Subscribed and sworn to before me this 10th day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

eee 2 E Clit Oude. hl

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38512
SERVICE LIST
Attorney for Petitioner:

Carter G. Phillips
Sidley Austin LLP
1501 K Street, NW
Washington, DC 20005
(202) 736-8270
cphillips@sidley.com

Attorney for Respondent PDS Consultants, Inc.:

David S. Gallacher

Sheppard Mullin

2099 Pennsylvania Ave., NW
Washington, DC 20006

(202) 747-1921
dgallacher@sheppardmullin.com

Attorney for Respondent United States of America:

Noel J. Francisco

Solicitor General of the United States
United States Department of Justice
Room 5616

950 Pennsylvania Ave., NW
Washington, DC 20530

(202) 514-2217
SupremeCtBriefs@usdoj.gov
